Audit Report




OIG-09-019
Audit of the Office of Thrift Supervision’s Fiscal Years
2008 and 2007 Financial Statements


December 18, 2008




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                December 18, 2008


             MEMORANDUM FOR JOHN M. REICH, DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Office of Thrift Supervision’s Fiscal Years 2008
                                      and 2007 Financial Statements


             I am pleased to transmit the attached audited Office of Thrift Supervision’s (OTS)
             financial statements for fiscal years (FY) 2008 and 2007. Under a contract
             monitored by the Office of Inspector General, Lani Eko & Company, CPAs, PLLC
             (Lani Eko), an independent certified public accounting firm, performed an audit of
             the financial statements of OTS as of September 30, 2008, and for the year then
             ended. The OTS’ financial statements for FY 2007 were audited by Deva &
             Associates, P.C., another independent certified public accounting firm, whose
             report dated November 2, 2007, expressed an unqualified opinion. Both contracts
             required that the audits be performed in accordance with generally accepted
             government auditing standards; applicable provisions of Office of Management and
             Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements;
             and the GAO/PCIE Financial Audit Manual.

             The following reports, prepared by Lani Eko, are incorporated in the attachment:

                      •   Independent Auditor’s Report;
                      •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                          and
                      •   Independent Auditor’s Report on Compliance with Laws and Regulations.

             In its audit of OTS’ financial statements, Lani Eko found:

                      •   that the financial statements were fairly presented, in all material
                          respects, in conformity with accounting principles generally accepted in
                          the United States of America,
                      •   no matters involving internal control and its operation that are considered
                          material weaknesses, and
Page 2


      •   no instances of reportable noncompliance with laws and regulations tested.

Lani Eko also issued a management letter dated October 31, 2008, discussing
certain matters involving internal control and its operation that were identified during
the audit but were not required to be included in the auditor’s reports.

In connection with the contract, we reviewed Lani Eko’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, an opinion on the
financial statements or conclusions about the effectiveness of internal control or
compliance with laws and regulations. Lani Eko is responsible for the attached
auditor’s reports dated October 31, 2008 and the conclusions expressed in the
reports. However, our review disclosed no instances where Lani Eko did not comply,
in all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
     2008
Financial Report




Office of Thrift
 Supervision
                      Table of Contents

                                                        Page


Independent Auditor’s Report .…………….….………..…..           1


Independent Auditor’s Report on Internal Control Over
      Financial Reporting..…………………………….….....            2


Independent Auditor’s Report on Compliance with
      Laws and Regulations..….………………….…….…..             4


Financial Statements………………..………………..….……                 5


Notes to Financial Statements..……..…………...……….…          8
                       INDEPENDENT AUDITOR’S REPORT


To the Inspector General
U.S. Department of the Treasury

We have audited the accompanying statement of financial position of the U.S.
Department of the Treasury, Office of Thrift Supervision (OTS) as of September 30,
2008, and the related statements of operations and changes in net position, and cash flows
for the year then ended. These financial statements are the responsibility of the OTS’
management. Our responsibility is to express an opinion on these financial statements
based on our audit. The financial statements of the OTS as of and for the year ended
September 30, 2007, were audited by other auditors whose report dated November 2,
2007, expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and applicable Office of Management and Budget (OMB) guidance for audits of federal
financial statements. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides
a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of OTS as of September 30, 2008, and the results of its
operations and its cash flows for the year then ended in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued a report dated
October 31, 2008, on our consideration of the OTS’ internal control over financial
reporting and a report dated October 31, 2008, on its compliance with laws and
regulations. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.




October 31, 2008
Alexandria, VA


                                            1
                 INDEPENDENT AUDITOR’S REPORT ON
            INTERNAL CONTROL OVER FINANCIAL REPORTING


To the Inspector General,
U.S. Department of the Treasury

We have audited the financial statements of the U.S. Department of the Treasury, Office
of Thrift Supervision (OTS) as of and for the year ended September 30, 2008, and have
issued our report thereon dated October 31, 2008. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and applicable Office of Management and
Budget (OMB) guidance for audits of federal financial statements.

In planning and performing our audit, we considered the OTS’ internal control over
financial reporting as a basis for designing our auditing procedures, obtained an
understanding of the design effectiveness of internal control, determined whether the
internal controls have been placed in operation, assessed control risk, and performed tests
of the OTS’ internal control for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the
OTS’ internal control over financial reporting. Accordingly, we do not express an opinion
on the effectiveness of the OTS’ internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
to prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the OTS’ ability
to initiate, authorize, record, process, or report financial data reliably in accordance with
generally accepted accounting principles such that there is more than a remote likelihood
that a misstatement of the OTS’ financial statements that is more than inconsequential
will not be prevented or detected by the OTS’ internal control.

A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material misstatement of
the financial statements will not be prevented or detected by the OTS’ internal control.

Our consideration of internal control was for the limited purpose described in the second
paragraph and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any
deficiencies in internal control over financial reporting that we consider to be material
weaknesses, as defined above.




                                             2
We noted certain matters involving internal control and its operation that we have
reported to the OTS’ management in a separate letter.

This report is intended solely for the information and use of the Inspector General of the
U.S. Department of the Treasury, the management of the OTS, the OMB, the
Government Accountability Office and Congress and is not intended to be and should not
be used by anyone other than these specified parties.




October 31, 2008
Alexandria, VA




                                            3
           INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE
                   WITH LAWS AND REGULATIONS


To the Inspector General
U.S. Department of the Treasury

We have audited the financial statements of the U.S. Department of the Treasury, Office
of Thrift Supervision (OTS) as of and for the year ended September 30, 2008, and have
issued our report thereon dated October 31, 2008. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and applicable Office of Management and
Budget (OMB) guidance for audits of federal financial statements. These standards
require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

As part of obtaining reasonable assurance about whether the OTS’ financial statements
are free of material misstatement, we performed tests of its compliance with certain
provisions of applicable laws, regulations, and contracts, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards or OMB Bulletin 07-04,
Audit Requirements for Federal Financial Statements, as amended.

This report is intended solely for the information and use of the Inspector General of the
U.S. Department of the Treasury, the management of the OTS, the OMB, the
Government Accountability Office and Congress and is not intended to be and should not
be used by anyone other than these specified parties.




October 31, 2008
Alexandria, VA




                                            4
                             UNITED STATES DEPARTMENT OF THE TREASURY
                                    OFFICE OF THRIFT SUPERVISION
                                  STATEMENTS OF FINANCIAL POSITION
                                             (In thousands)




                                                                             As of September 30
                                                                           2008              2007
Assets

   Cash and cash equivalents (Note 3)                                 $    158,164      $   227,146
   Accrued interest receivable                                               1,545              706
   Accounts receivable                                                         895            1,365
   Investments held to maturity (Note 4)                                   183,902           79,180
   Property and equipment, net (Note 5)                                     30,434           32,167
   Other assets                                                              1,014            1,438

         Total Assets                                                 $    375,954      $   342,002

Liabilities and Net Position

Liabilities

   Accounts payable                                                   $      4,248      $     1,988
   Accruedd annuall lleave                                                  11,377           10,854
   Workers' compensation liability (Note 6)                                  3,791            3,587
   Deferred compensation liability (Note 7)                                    414              471
   Deferred assessment revenue                                              64,643           55,312
   Deferred rent credit                                                      2,105            2,155
   Post-retirement benefit liability (Note 8)                               17,997           16,823
   Other retirement plan liabilities (Note 9)                                3,343            6,056
   Payroll, benefits, and withholding                                        7,772           12,011
   Other accrued liabilities (Note 10)                                       9,791            5,890

         Total Liabilities                                            $    125,481      $   115,147

Net Position

   Assumed capital                                                    $     41,037      $    41,037
   Retained earnings                                                       209,436          185,818

         Total Net Position (Note 11)                                 $    250,473          226,855

         Total Liabilities and Net Position                           $    375,954      $   342,002




   The accompanying notes are an integral part of these financial statements.



                                                5
                UNITED STATES DEPARTMENT OF THE TREASURY
                       OFFICE OF THRIFT SUPERVISION
           STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                         For the Years Ended September 30
                                   (In thousands)




                                                                         For the Years Ended
                                                                             September 30
                                                                        2008              2007
Revenues

   Industry assessments                                           $     245,175     $    217,506
   Examination, application, and security filing fees                     7,527            8,156
   Interest                                                               8,818           11,528
   Rental income (Note 12)                                                5,020            4,984
   Other                                                                    777              635

   Total Revenues                                                 $     267,317     $    242,809

Expenses

   Personnel compensation                                         $     122,797     $    113,196
   Benefits (Note 9)                                                     56,704           59,582
   Rent, communication, and utilities (Note 13)                           7,449            6,925
   Travel and transportation                                             17,316           15,198
   Services                                                              13,228            7,918
   Data processing                                                        6,931            2,248
   Building expenditures                                                 10,227            5,238
   Office equipment and software                                          3,604            3,107
   Miscellaneous                                                          3,528            2,843
   Depreciation and amortization                                          1,915            1,874

   Total Expenses                                                 $     243,699     $    218,129

Excess of Revenues over Expenses                                  $      23,618     $     24,680

Net Position, Beginning Balance                                         226,855          202,175

Net Position, Ending Balance                                      $     250,473     $    226,855




   The accompanying notes are an integral part of these financial statements.




                                             6
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION
                                   STATEMENTS OF CASH FLOWS
                                    For the Years Ended Septmber 30
                                             (In thousands)




                                                                                  For the Years Ended
                                                                                     September 30
                                                                                2008               2007
CASH FLOWS FROM OPERATING ACTIVITIES

Excess of revenues over expenses                                            $    23,618      $     24,680

Adjustments to reconcile excess of revenues over expenses to
   net cash provided by operating activities:
       Amortization of net bond premium                                             212              (214)
       Depreciation and amortization                                               1,915            1,874
       Loss on disposed assets                                                         2                  -

Changes in assets and liabilities:
      (Increase)/Decrease in receivables                                            (369)             648
      Decrease/(Increase) in other assets                                            424             (329)
      Increase in accounts payable                                                 2,260              361
      Increase in other liabilities                                                8,074              625

       Net cash provided by operating activities                            $    36,136      $     27,645

CASH FLOWS FROM INVESTING ACTIVITIES

       Purchases of investments                                             $   (124,934)    $          -
       Maturities of investments                                                  20,000           45,000
       Purchases of equipment                                                       (184)          (1,233)
       Equipment proceeds received                                                     -                3

       Net cash (used in)/provided by investing activities                  $   (105,118)    $     43,770

Net cash (used in)/provided by operating and investing activities           $    (68,982)    $     71,415

Cash and cash equivalents, beginning of year                                    227,146           155,731

Cash and cash equivalents, end of year                                      $   158,164      $    227,146




   The accompanying notes are an integral part of these financial statements.




                                                    7
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                     NOTES TO FINANCIAL STATEMENTS



1. REPORTING ENTITY

The Office of Thrift Supervision (OTS) was created when the Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) abolished the Federal Home Loan Bank Board (FHLBB) and transferred all
examination and supervisory activities to OTS under the Department of the Treasury. The primary functions of
OTS are to: (1) charter federal savings and loan associations; (2) adopt regulations governing the operation of the
thrift industry; (3) conduct examinations of federal and state chartered savings institutions and their holding
companies; and (4) supervise compliance with federal laws and regulations and OTS directives, taking measures
needed to enforce such compliance and rehabilitate troubled institutions.

FIRREA provides that OTS assess the institutions it regulates to recapture operating costs. Assessments are
collected semiannually on January 31 and July 31.


2. SIGNIFICANT ACCOUNTING POLICIES

BASIS OF PRESENTATION

OTS has historically prepared its financial statements in accordance with generally accepted accounting principles
based upon accounting standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. In October 1999, the American Institute of Certified Public Accountants designated the
Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial statements of
federal government entities with respect to the establishment of generally accepted accounting principles. FASAB
has indicated, however, that financial statements prepared based upon accounting standards published by the FASB
may also be regarded as being in accordance with generally accepted accounting principles for those federal entities
such as OTS that have issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, OTS financial statements are presented in accordance with accounting standards
published by FASB.

CASH AND CASH EQUIVALENTS

Cash and cash equivalents consist of OTS’s account at the Department of the Treasury and funds invested overnight
by Treasury on behalf of OTS.

INVESTMENTS HELD TO MATURITY

Effective January 1, 1994, OTS adopted Statement of Financial Accounting Standards (SFAS) No. 115,
“Accounting for Investments in Certain Debt and Equity Securities.” Under the statement, OTS is required to
classify investment securities under three categories: (1) trading, (2) available for sale, and (3) held to maturity. All
of the agency’s investments consist of Treasury obligations. OTS has the intent and ability to hold these
investments to maturity. Therefore, all investments are classified as held to maturity and are stated at amortized
cost. Certain Treasury securities are purchased at a discount or premium. Premiums and discounts are amortized
over the term of the security using the interest method.




                                                         8
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS



2. SIGNIFICANT ACCOUNTING POLICIES (continued)

POST-RETIREMENT BENEFITS

OTS provides certain health and life benefits for all retired employees that meet eligibility requirements. Effective
January 1, 1993, OTS adopted SFAS No. 106, “Employers’ Accounting for Post retirement Benefits Other Than
Pensions,” to account for its share of the costs of those benefits. Under this statement, OTS’s share of the estimated
costs that will be paid after retirement is being accrued by charges to expense over the employees’ active service
periods to the dates that they are fully eligible for benefits, except that OTS has elected to amortize the transition
amount (unfunded cost at January 1, 1993) over 20 years beginning in 1993 in accordance with the option available
in the statement. Prior to 1993, OTS expensed its share of the costs as the retirees incurred claims and as OTS paid
premiums. Pursuant to an agreement with the Office of Personnel Management (OPM) in 1994, OTS agreed to pay
a one-time fee to OPM in consideration of OPM assuming the health care portion of the post-retirement plan
liability.

ANNUAL, SICK, AND OTHER LEAVE

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance in the accrued
annual leave account reflects current pay rates. Sick leave and other types of nonvested leave are charged to
operating costs as taken.

PROPERTY AND EQUIPMENT

Fixed assets acquired by OTS are capitalized at cost. Individual fixed assets in excess of $50,000 and bulk
purchases in excess of $500,000 are capitalized. Aggregate purchases of multiple items directly related to a specific
project (for example, leasehold improvements) are capitalized when the total cost exceeds a minimum threshold of
$500,000, and the annual amortization amount exceeds $50,000. The building owned by OTS is being depreciated
over 50 years. The agency’s capitalized furniture, fixtures and equipment are depreciated over 3 to 5 years.
Depreciation is computed on a straight-line basis.

INCOME TAXES

As an agency of the Department of the Treasury, OTS is exempt from all federal and state taxes based on income.
OTS is also exempt from state and local property and real estate taxes.


3. CASH AND CASH EQUIVALENTS

The following table summarizes the balances of cash and cash equivalents (in thousands):

                                                        September 30
                                                     2008          2007

         Cash                                   $        994     $     1,019
         Overnight investment with Treasury          157,170         226,127
         Total cash and cash equivalents        $    158,164     $   227,146

Interest earned on cash and overnight investments totaled $4.7 million and $7.8 million for 2008 and 2007,
respectively.




                                                        9
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS



4. INVESTMENTS HELD TO MATURITY

Investment securities held at September 30, 2008 and 2007 are marketable Treasury securities maturing through
May 2013. The amortized cost and market value of these securities are summarized as follows (in thousands):

                                                                                 September 30
                                                                              2008          2007

        Face value                                                        $   180,000 $      80,000
        Unamortized premium, net of unamortized discount                        3,902         (820)

        Book value of investments held to maturity                        $   183,902 $      79,180

        Market value                                                      $   185,569 $      79,231

Effective interest yields range from 1.5 percent to 4.8 percent. Interest earned on these investments totaled $4.1
million and $3.7 million for 2008 and 2007, respectively.


5. PROPERTY AND EQUIPMENT

The following table summarizes the fixed asset balances (in thousands):

                                                                                 September 30
                                                                              2008          2007

        Land                                                              $     7,101 $       7,101
        Building                                                               49,188        49,188
        Furniture, fixtures, and equipment                                      4,231         4,856
        Leasehold Improvements                                                  1,852         1,852
         Total cost                                                       $    62,372 $      62,997

        Accumulated depreciation, building                                $   (28,652) $    (27,599)
        Accumulated depreciation, furniture, fixtures, and equipment           (2,506)       (2,591)
        Accumulated amortization, leasehold improvements                         (780)         (640)
         Total accumulated depreciation and amortization                  $   (31,938) $    (30,830)

        Property and equipment, net                                       $    30,434 $      32,167


6. WORKERS’ COMPENSATION LIABILITY

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Benefit
claims incurred for active and former employees of OTS and its predecessor, the Federal Home Loan Bank Board,
are administered by the U.S. Department of Labor (DOL) and are ultimately paid by OTS. Actuarial estimates of
future workers’ compensation estimates are generated by DOL. The estimated actuarial liability for FECA benefits




                                                      10
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS



6. WORKERS’ COMPENSATION LIABILITY (continued)

includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. This method utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. The annual benefit payments have been discounted to present value using
OMB’s economic assumptions for 10-year Treasury notes and bonds. Based on information provided by DOL and
the Department of the Treasury, OTS estimates that its FECA liability was $3.8 million and $3.6 million as of
September 30, 2008 and September 30, 2007, respectively. Actual FECA expenses currently payable are included
in other accrued liabilities and totaled $818 thousand and $742 thousand as of September 30, 2008 and September
30, 2007, respectively. Changes in the actuarial liability and payments related to FECA are reflected as reductions
or increases in benefits expense in the appropriate year.


7. DEFERRED COMPENSATION LIABILITY

Under provisions of FIRREA, OTS assumed the Deferred Compensation Plans of the employees transferred from
the Federal Home Loan Banks of Dallas and San Francisco. These plans allowed employees to defer a portion of
their income and provided for employer matching contributions. OTS froze these plans and discontinued all plan
deferrals or employer matches effective January 1, 1991. Under the assumed plans, benefits were intended to be
provided by cash value life insurance policies issued by Mutual Benefit Life; Mutual Benefit Life went into
rehabilitation on July 16, 1991. OTS surrendered all but two of these policies in 1994 and retained the full cash
values on deposit with Mutual Benefit Life. Under the rehabilitation plan, withdrawal of cash values prior to
December 31, 1999, was restricted and subject to substantial withdrawal penalties. In 2003, OTS elected to receive
the cash values for surrendered policies and invest the funds with Treasury. The cash value of the one remaining
policy, included in other assets in the accompanying Statements of Financial Position, is approximately $16
thousand in 2008 and $15 thousand in 2007. Plan payments are funded by OTS.


8. POST-RETIREMENT BENEFIT LIABILITY

OTS sponsors a life insurance plan (the Plan) for all employees that meet eligibility requirements. The agency
funds benefit costs principally on a pay-as-you-go basis, with retiree contributions that are adjusted annually based
on certain factors, some of which are discretionary. The Plan is unfunded, with participants paying a portion of the
costs. As stated in the Significant Accounting Policies, OTS changed its accounting policy with respect to the Plan
as of January 1, 1993. OTS elected to defer recognition of the Plan’s transition obligation and amortize such
obligation over 20 years on a straight-line basis.

A Memorandum of Understanding (MOU) was signed in December 1994 between OPM and OTS. The purpose of
the MOU was to implement legislation permitting annuitants who retired from OTS prior to January 1995, and who
were enrolled in the OTS health plan, to enroll in the Federal Employees Health Benefits (FEHB) plan for coverage
effective on or after January 8, 1995.

OTS agreed to pay a one-time fee to OPM of approximately $11.0 million in consideration of OPM assuming the
health portion of the post-retirement plan liability. In accordance with SFAS No. 106, the agreement with OPM
constitutes a settlement and, accordingly, OTS recognized a gain on the settlement of approximately $16.7 million
in 1994. Such gain includes the health portion of the transition obligation that OTS elected to initially recognize
over 20 years in 1993. The post-retirement liability of $18.0 million in the Statements of Financial Position at
September 30, 2008 and $16.8 million at September 30, 2007 represents OTS’s recognized portion of the remaining
liability for participants’ future life insurance benefits.




                                                      11
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                      NOTES TO FINANCIAL STATEMENTS



8. POST-RETIREMENT BENEFIT LIABILITY (continued)

Net periodic post-retirement benefit cost for life insurance provisions under the Plan included the following
components in 2008 and 2007(in thousands):

                                                                                  For the Years Ended
                                                                                     September 30
                                                                                  2008           2007

        Service cost - current year                                         $          572 $            574
        Interest on accumulated post-retirement benefit obligation                   1,042             988
        Amortization of transition obligation                                          253             253
        Net post-retirement benefit expense                                 $        1,867 $         1,815

        The following table sets forth the Plan’s funded status reconciled with the liability recognized in
        the Statements of Financial Position (in thousands):
                                                                                      September 30
                                                                                  2008            2007
        Accumulated post-retirement benefit obligation:
              Retirees                                                      $       10,500 $        10,478
              Other fully eligible participants                                         99            6,082
              Other active participants                                              8,425           2,733
        Accumulated post-retirement benefit obligation                              19,024          19,293

        Unrecognized transition obligation                                         (1,074)         (1,327)
        Unrecognized net gain or (loss)                                                 47         (1,143)
        Total post-retirement benefit liability                             $       17,997 $        16,823

The weighted average discount rates used in estimating the accumulated post-retirement benefit obligations at
September 30, 2008 and September 30, 2007 were 5.50 percent and 5.50 percent, respectively


9. OTHER RETIREMENT PLAN LIABILITIES

OTS employees participate in three retirement systems. Two are administered by OPM. For funding purposes,
these two plans function as defined contribution plans; however, the retirement benefits accrue in a manner
consistent with a defined benefit plan. The third is a private defined benefit plan, the Financial Institutions
Retirement Fund (FIRF), administered by Pentegra Retirement Services (Pentegra).

The Civil Service Retirement System (CSRS) is two-tiered. For employees hired prior to January 1, 1984, OTS
withholds 7 percent of regular earnings. OTS also contributed 7 percent of regular earnings during 2008 and 2007
for each employee in this tier. The sum is transferred to the Civil Service Retirement Fund, from which this
employee group will receive retirement benefits. Employees do not contribute to, or receive benefits from, the
Social Security System.




                                                     12
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS



9. OTHER RETIREMENT PLAN LIABILITIES (continued)

For employees with more than 5 years of (not necessarily continuous) service, hired on or after January 1, 1984,
OTS withholds 0.8 percent of regular earnings, in addition to Social Security withholding. OTS also contributed 7
percent of regular earnings in 2008 and 2007, respectively, for each employee in this tier. When regular earnings
exceed the FICA maximum wages, employees covered under this tier of CSRS are required to have 7 percent of
their earnings withheld. This employee group will receive retirement benefits from both CSRS and the Social
Security System.

Beginning in January 1987, all employees hired since January 1, 1984, either as new employees or having less than
5 years of accumulated service (with a break in service over one year) are included in the Federal Employee
Retirement System (FERS). For these employees, OTS withheld 0.8 percent of regular earnings in 2008 and 2007.
The agency contributed 11.2 percent of regular earnings in both 2008 and 2007 for FERS employees. This group of
employees will receive benefits from FERS as well as the Social Security System, to which they concurrently
contribute.

Pursuant to FIRREA, the Office of Regulatory Activities (ORA) and its twelve examination districts became part of
OTS. OTS assumed the cost of their retirement system, which is part of FIRF. OTS contributes a percentage of
total FIRF salary. The percentage varies from year to year. Employees do not contribute to FIRF but do contribute
to the Social Security System. Changes in percentages are based on the number and average age of active FIRF
employees, the number of people who have retired, the benefits paid out, and adjustments to the actuarial gain or
loss.

The Minimum Required Contribution (MRC) for each FIRF plan year consists of two components: (1) normal cost
and (2) amortization of the retirement plan’s shortfall, if any. For the plan year beginning July 1, 2007, three-
quarters of which coincide with OTS’s 2008 fiscal year, the MRC was calculated under the Employee Retirement
Income Security Act rules, which prescribed the calculation of an Unfunded Accrued Liability (UAL). For the plan
year beginning July 1, 2007, OTS’s estimated UAL was $48.2 million. The plan year UAL is amortized over
approximately 5 years in conformance with IRS Rules.

Prior to OTS’s fiscal year closing, OTS receives notice of the plan year MRC from the FIRF plan administrator.
OTS recognizes one-fourth of the MRC as current fiscal year expense and the remainder in the next fiscal year. The
MRC for the plan year beginning July 1, 2007 was $25.5 million, which was reduced to $24.2 million by paying it
in full early in the plan year. Accordingly, OTS recognized $6.1 million in expenses for the fourth quarter of fiscal
year 2007. The remainder, $18.1 million was expensed in fiscal year 2008.

The plan year beginning July 1, 2008 is the first plan year under the rules of the Pension Protection Act of 2006
(PPA). Under this law, the MRC still consists of a normal cost (now called the “Target Normal Cost”) and a
shortfall amortization, if any. However, the shortfall amortization is calculated differently. Under the new
calculations, OTS has a funding target – calculated as the net present value of future liabilities – of $303.5 million,
and plan assets valued at $290.7 million. The resulting funding percentage of 95.8% is above the minimum
required by the PPA for the plan year, so there is no shortfall amortization. Therefore, OTS’s MRC for the plan
year beginning July 1, 2008 equals the Target Normal Cost, $13.4 million. Accordingly, OTS recognized $3.4
million in expenses for the fourth quarter of fiscal year 2008. The remainder, $10.0 million will be expensed in
fiscal year 2009.

OTS funds a portion of CSRS and FERS pension benefits and collects the appropriate payroll withholdings. OTS
does not account for the assets of either government retirement plan, nor does it have actuarial data with respect to
accumulated plan benefits or the unfunded pension liability relative to its employees. These amounts are reported
by OPM for both government retirement systems and are not allocated to the individual agencies.




                                                       13
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS




9. OTHER RETIREMENT PLAN LIABILITIES (continued)

In addition to the retirement plans described above, OTS employees have the option of participating in retirement
savings plans. Employees covered under CSRS or FERS may participate in the OPM-sponsored Thrift Savings
Plan (TSP), a plan with characteristics similar to a private-sector 401(k) plan. CSRS and FERS covered employees
may also participate in the Financial Institutions Thrift Plan (FITP), a 401(k) plan administered by Pentegra.
Employees covered under FIRF may participate in FITP only. OTS makes matching contributions of: up to 3
percent for CSRS participants, 8 percent for FERS participants, and 7 percent for FIRF participants.

The liabilities for all OTS plans, included in other retirement plan liabilities in the accompanying Statements of
Financial Position, are as follows (in thousands):

                                     September 30
                                   2008        2007

         FIRF Total          $    3,343    $   6,056

The expenses for all OTS plans, included in benefits expense in the accompanying Statements of Operations and
Changes in Net Position, are as follows (in thousands):

                                  For the Years Ended
                                     September 30
                                   2008         2007

         CSRS                 $       972 $        904
         FERS                       4,603        4,299
         FIRF                      21,512       29,002
         FITP                       4,558        4,755
         TSP                        1,779        1,644
         Total                $    33,424 $     40,604



10. OTHER ACCRUED LIABILITIES

The following table summarizes the other accrued liabilities (in thousands):

                                                         September 30
                                                      2008          2007

         Post-employment benefits payable      $           818 $          742
         Goods and services                              8,973          5,148
             Total other accrued liabilities   $         9,791 $        5,890




                                                         14
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS




11. NET POSITION

The land and building owned by the FHLBB were transferred to OTS under FIRREA. OTS also assumed all
furniture, fixtures and equipment previously owned by FHLBB. These assets were recorded at their existing book
values established in the FHLBB’s accounting records. Their value is reported as assumed capital in the Net
Position section of the comparative Statements of Financial Position. Assumed capital totaled $41.0 million as of
September 30, 2008 and 2007.

Beginning in fiscal year 2005, OTS set aside a portion of its retained earnings as contingency and special reserves.
The contingency reserve supports OTS’s ability to accomplish its mission in the case of significant revenue loss.
Unforeseeable events, such as a major change in the thrift industry, are beyond the control of OTS. The special
reserve supplements revenue from assessments and other sources that are made available to fund OTS’s annual
budget. The special reserve reduces the effect on operations of unforecasted revenue shortfalls or unbudgeted and
unanticipated requirements or opportunities. Undelivered orders represent the amount of goods and services
ordered that have not been actually or constructively received and for which amounts have not been prepaid or
advanced.

The following table summarizes the components of the retained earnings (in thousands):

                                                       September 30
                                                    2008          2007
              Contingency reserve             $      151,289 $    130,222
              Special reserve                         50,000        50,000
              Undelivered orders                       8,147         5,596
                  Total retained earnings     $      209,436 $    185,818


12. RENTAL INCOME

OTS leases a portion of its building as office and retail space under noncancellable operating leases expiring at
various dates through 2021. Some of the leases provide renewal options. The leases provide for annual base rent
and additional rents for building operating expenses. Some leases provide for fixed future increases in rents over
the term of the lease.

The future minimum rentals to be received under noncancellable operating lease arrangements, not including
renewals, are as follows (in thousands):

        Years ending
        September 30            Total
        2009                  $    4,628
        2010                       4,498
        2011                       4,448
        2012                       4,409
        2013                       4,420
        Thereafter                 2,393
                              $ 24,796


Rental income totaled $5.0 million and $5.0 million for 2008 and 2007, respectively.

                                                      15
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS




13. LEASE COMMITMENTS

OTS conducts most of its regional operations in leased facilities under noncancellable operating leases expiring at
various dates through 2020. Many of the leases contain a provision to renew at the end of the initial term for an
additional one to ten years. The rental payments are based on a minimum rental plus a proportional share of
building operating expenses and taxes.

Some of the operating leases provide for rental escalations or stated annual rental increases in the amount of base
rent over the lives of the leases. The accompanying comparative Statements of Operations and Changes in Net
Position reflect rent expense on a straight-line basis over the lives of the leases.

The minimum rental commitments under noncancellable operating leases are as follows (in thousands):

         Years ending
         September 30           Total
         2009                 $ 3,661
         2010                   3,593
         2011                   3,339
         2012                   2,272
         2013                   1,884
         Thereafter             8,045

         Total                $ 22,794

Rent expense under noncancellable operating leases totaled $4.0 million and $3.9 million for 2008 and 2007,
respectively.


14. COMMITMENTS AND CONTINGENCIES

There are approximately sixteen lawsuits pending against the United States in the Court of Federal Claims and the
Court of Appeals for the Federal Circuit, in connection with Congress’s elimination of the capital treatment of
supervisory goodwill or other intangible assets of certain thrift institutions. These cases arise from the enactment of
the Financial Institutions Reform, Recovery and Enforcement Act of 1989. The U.S. Department of Justice
(Department of Justice) is defending these cases on behalf of the United States, and OTS is supporting the
Department of Justice in its defense efforts. Under 28 U.S.C. § 2517, any judgment issued by the Court of Federal
Claims must be paid from appropriated funds. Therefore, OTS funds, which are non-appropriated, cannot be used
to pay judgments in these cases.

In addition, there is a preliminary matter that has not yet reached the point of litigation. The claimant has submitted
an administrative claim for $5 million in damages, but OTS has not yet issued a decision on the claim. Given the
preliminary stage of this matter, OTS is not presently able to estimate either the likelihood of success or any
potential loss that may ultimately result if litigation ensues.




                                                       16
